BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of Children's
Rights; Professor Bruce Boyer; Center for Children's
Advocacy; Center on Children and Families; Children
and Family Justice Center; Children's Action Alliance;
Children's Advocacy Institute; Children's Defense
Fund; Children's Defense Fund-New York; Children's
Law Center of California; Children's Law Center of
Kentucky; Court Appointed Special Advocates of Los
Angeles; Professor Michael J. Dale; First Star, Inc.;
Harvard Law School Child Advocacy Program;
Juvenile Law Center; Lawyers For Children; Legal
Counsel for Youth and Children; Legal Services for
Children; National Association of Counsel for
Children; National Center for Youth Law; New Mexico
Advocacy Network; Partners for Our Children;
University of Miami Children and Youth Law Clinic;
Youth Law Center; Professor C. Colt Anderson; Pastor
Susannah Davis; Episcopal Divinity School at Union;
Rabbi Steve Gutow; Hon. Ruth W. Messinger; Rabbi
Philip Rice; SAJ; Union Theological Seminary as Amici
Curiae Supporting Respondents in 19-123, Sharonell
Fulton, et al. v. City of Philadelphia, Pennsylvania, et
al., were sent via Two Day Service to the U.S.
Supreme Court, and 3 copies were sent via Two Day
Service and e-mail to the following parties listed
below, this 20th day of August, 2020:

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

I www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becketlaw.org
Counsel for Petitioners
Leslie Cooper
American Civil Liberties Union
125 Broad Street
New York, NY 10004
(212) 519-7815
lcooper@aclu.org
Counsel for Intervenor-Respondents Support Center for
Child Advocates and Philadelphia Family Pride
Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovel ls.com
Counsel for Respondents City of Philadelphia,
Department of Human Services for the City of
Philadelphia, Philadelphia Commission on Human
Relations

Kendyl T. Hanks
Counsel of Record
Elizabeth "Heidi" Bloch
Nicole Leonard Cordoba
Greenberg Traurig, LLP
300 West 6th Street, Suite 2050
Austin, Texas 78701
(512) 320-7200
hanksk@gtlaw.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 20, 2020.

(b

DonnaJ. ~
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

(lugµ/:; ~ , Jo;Jo
dfvvti,

Notary Public
[seal]

~

